Semiannual Report to Congress - October 1, 1998 through March 31, 1999
Semiannual Report to Congress
October 1, 1998 through March 31, 1999
TRANSMITTAL
LETTER
FOREWORD
REPORTING
REQUIREMENTS
INSPECTOR
GENERAL SUMMARY
SECTION 1:
SIGNIFICANT PROBLEMS, ABUSES AND DEFICIENCIES
AND DESCRIPTION OF OIG RECOMMENDATIONS FOR CORRECTIVE ACTION
SECTION 2: MATTERS
REFERRED TO PROSECUTIVE AUTHORITIES AND
RESULTANT PROSECUTIONS AND CONVICTIONS
SECTION 3: SUMMARY
OF RESTITUTION MADE AS A RESULT OF CIVIL AND
CRIMINAL INVESTIGATIONS AND/OR AUDITS
SECTION 4: SUMMARY
OF EACH REPORT TO ESTABLISHMENT HEAD CONCERNING
INFORMATION OR ASSISTANCE UNREASONABLY REFUSED OR NOT PROVIDED
SECTION 5: LIST OF
EACH AUDIT REPORT ISSUED
SECTION 6: SUMMARY
OF EACH SIGNIFICANT AUDIT REPORT
SECTION 7:
STATISTICAL TABLES SHOWING TOTAL NUMBER OF AUDIT REPORTS
AND TOTAL DOLLAR VALUE OF QUESTIONED AND UNSUPPORTED COSTS
SECTION 8:
STATISTICAL TABLES SHOWING TOTAL NUMBER OF AUDIT REPORTS
AND DOLLAR VALUE OF RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
April 30, 1999
Honorable John C. Truesdale, Chairman
National Labor Relations Board
1099 14th Street, NW, Room 11100
Washington, DC 20570
Honorable Frederick L. Feinstein, General
Counsel
National Labor Relations Board
1099 14th Street, NW, Room 10100
Washington, DC 20570
Dear Chairman Truesdale and General
Counsel Feinstein:
This is the ninteenth Semiannual Report (SAR)
for the Office of Inspector General (OIG). This SAR is prepared in
accordance with Section 5 of the Inspector General Act and covers the
period October 1, 1998 through March 31, 1999.
This will also serve as a reminder that,
pursuant to Section 5(b) of the Inspector General Act of 1978, as amended,
this report "shall be transmitted by [the Agency head]
to the
appropriate committees or subcommittees of the Congress within thirty days
after receipt of the report, together with a report by the head of the
establishment
."
Very truly yours,
Aileen Armstrong
Inspector General
FOREWORD
The National Labor Relations Board (Agency
or NLRB), which employs almost 1,900 employees and, for Fiscal Year 1998,
had funding of about $175,000,000, is an independent agency which was
established in 1935 to administer the principal labor relations law of the
United States - - the National Labor Relations Act. The provisions of the
National Labor Relations Act are generally applied to all enterprises
engaged in, or to activities affecting, interstate commerce, including the
United States Postal Service, but excluding other Governmental entities,
as well as the railroad and airline industries. The Agency protects the
public interest: (1) by conducting secret ballot elections to determine if
a group of employees wishes to be represented for collective bargaining
purposes by a labor organization, and (2) by preventing and/or remedying
unfair labor practices committed by employers and unions.
The Chairman, four Board Members and a
General Counsel are appointed by the President with the advice and consent
of the Senate. The Chairman and Board Members have staggered terms of 5
years each and the General Counsel has a 4-year term. The Agency,
headquartered in Washington, DC, has 33 Regional Offices, some of which
have Subregional and/or Resident Offices. This far-flung organization has
handled unfair labor practice cases affecting hundreds of thousands of
persons and has conducted representation elections in which millions of
employees have decided whether they wished to be represented by a labor
organization for collective bargaining purposes.
The mission of the Office of Inspector
General (OIG) is to promote integrity, efficiency, and effectiveness by
conducting audits and investigations in an independent manner and
objectively reporting to the Chairman, the General Counsel and the
Congress. The OIG Table of Organization provides for an Inspector General,
an Assistant Inspector General for Audits, two Auditors, a Chief Counsel
to the Inspector General/Assistant Inspector General for Investigations, a
Deputy Assistant Inspector General for Investigations and a Staff
Assistant.
REPORTING REQUIREMENTS
ACT CITATION AND
REQUIREMENT
PAGE
Section
4(a)(2)
Review
of Legislation and Regulations
None
Section
5(a)(1) and (2)
Significant
Problems, Abuses and Deficiencies and Recommendations for Corrective
Action.
1
Section
5(a)(3)
Prior
Recommendations Not Yet Implemented
None
Section
5(a)(4)
Matters
Referred to Prosecutive Authorities
4
Section
5(a)(5) and 6(b)(2)
Summary
of Instances Where Information Was Unreasonably Refused or Not
Provided
6
Section
5(a)(6)
List
of OIG Audit Reports
7
Section
5(a)(7)
Summary
of Each Significant Report
8
Section
5(a)(8)
Statistical
Table on Management Decisions on Questioned Costs.
10
Section
5(a)(9)
Statistical
Table on Management Decisions on Recommendations That Funds Be Put
to Better Use
11
Section
5(a)(10)
Summary
of Each Audit Over 6 Months Old For Which No Management Decision Has
Been Made
None
Section
5(a)(11)
Significant
Revised Management Decisions
None
Section
5(a)(12)
Significant
Management Decisions With Which the Inspector General Disagrees
None
INSPECTOR
GENERAL SUMMARY
We completed our audit relating to the
Agency's efforts in identifying Year 2000 problems and the actions
taken or planned to ensure that mission critical systems will function
in the new millennium. Our audit report is discussed in Section 6 of
this Semiannual Report.
We completed our audit which evaluated
three new procedures adopted by the Division of Judges to expedite the
resolution of unfair labor practice cases. The three procedures
adopted consist of: (1) using settlement judges to affect settlements
prior to formal hearings; (2) granting judges the authority to ask for
oral argument in lieu of briefs and issue bench decisions at the close
of hearings; and (3) establish time targets for the issuance of
Administrative Law Judges' decisions. Our audit report is discussed in
Section 6 of this Semiannual Report.
We continue to audit the timeliness of
casehandling by the Board. This audit is focused on unfair labor
practice cases adjudicated before the Board.
The Office of Inspector General has
contracted to review the Case Activity Tracking System (CATS) project.
The CATS is a multi-year project to replace several existing
information systems with one integrated information system. The review
will assess the design, development, implementation, and related
management of CATS.
The Inspector General has continued to
place a major emphasis upon joint investigations with other law
enforcement agencies. Among the activities of the OIG were:
Three cases were opened and continue
under active investigation.
Two cases were opened and investigated
to closure.
Four cases
previously opened were investigated to closure during this reporting
period.
Several joint investigations with other
law enforcement agencies continued.
Twenty-four "HOTLINE" calls were received and
screened. A large number of these calls related to Agency operations and
appropriate follow-up and referrals were made.
A summary of the matters pending in the
OIG at the end of the reporting period includes:
The OIG has continued a self initiated
extensive review of potential fraudulent Federal Employees
Compensation Act claims against the Agency.
Twenty-four cases previously initiated
remain open and under active investigation by the OIG.
Three new cases are under active
investigation by the OIG.
A joint investigation is continuing
with the FBI and multiple other Federal law enforcement agencies.
SECTION
1
DESCRIPTION OF SIGNIFICANT
PROBLEMS, ABUSES AND DEFICIENCIES RELATING TO ADMINISTRATION OF PROGRAMS
AND OPERATIONS AND DESCRIPTION OF OIG RECOMMENDATIONS FOR CORRECTIVE
ACTION (MANDATED BY SECTION 5 (a) (1) AND (2) OF THE ACT)
INVESTIGATIONS
The following investigations were
completed and/or referred for action during this reporting period:
Allegation of Subornation of Perjury
by Union Official
An NLRB/DOL OIG Investigation Disclosed
That ... There was insufficient evidence to support an
allegation that a union official had suborned perjury.
The OIG was provided with an affidavit of
a union member by a member of the management bar in support of an
allegation that a union official had sought his false testimony in
exchange for specific remunerations.
The OIG interviewed the affiant in the
matter and the OIG found no substantial evidence to support the
allegations.
The matter was reviewed by a United States
Attorney's office which concurred in the OIG determination and the case
was declined for criminal prosecution.
Action Taken ... The
Regional Director with jurisdiction was advised of the outcome of the
investigation, and the original NLRB charge brought by the union was
withdrawn by the union.
OIG Case Closed After Agency Failed to Act
An OIG Investigation Disclosed That ... A
staff employee of a Regional Office had incurred several hundred dollars
in government telephone billings for personal purposes.
In August of 1996, the matter was referred
to the General Counsel for review for administrative action.
In April of 1997 the OIG requested an
update on the status of the matter from the General Counsel.
In October of 1997 the General Counsel
advised the OIG that the Agency hoped for a prompt conclusion.
In August of 1998 the OIG requested an
update on the status of the matter from the General Counsel.
Action Taken ... In
December of 1998, having had no further response or action on the matter
the Inspector General closed the OIG case.
Mail Fraud
Impersonating a Federal Officer
An OIG Investigation Disclosed That ... The
CEO of a New Jersey firm received a letter in the mail, purportedly sent
by a member of the National Labor Relations Board, in which it was alleged
that charges against the firm and certain members of management were
pending an investigation.
Attached to this letter was additional
correspondence which described the procedure that the NLRB would follow
when an unfair labor practice charge was filed.
It was determined that the subject
correspondence was in fact false.
Action Taken: A detailed on-site investigation was conducted,
including the interview of management and company employees, however no
information was developed which could lead to the identity of the
author/sender of these letters and the investigation was terminated.
Agency Participation in Improper
Influence by Contractor on SBA
Official
An OIG Investigation Disclosed That
A
letter from an official at the Small Business Administration (SBA) was
sent to influence this Agency's decision on a contracting issue. The
investigation disclosed that this Agency was presented with a letter
prepared for the signature of the SBA official but unsigned and on plain
non-letterhead paper from the interested contractor. Thereafter, a letter
from the SBA official identical in substance to the one previously
presented by the contractor but on SBA letterhead and signed by the
official was received by the Agency. This matter was referred to the SBA
OIG to investigate any improprieties. The SBA OIG investigated and
determined that the letter was written by the contractor, transferred to
SBA letterhead, and submitted to the official for signature. While that
procedure was inappropriate, the SBA OIG did not find any other evidence
of an improper relationship between the contractor and the SBA official.
Action Taken
The SBA was satisfied that no further investigation was necessary and
closed its case. Accordingly the OIG closed its case alleging Agency
participation in the contractor's improper activity at SBA.
Whistleblower Activity by
Contractor's Employee
An OIG Investigation Disclosed That
A
contractor's employee did not qualify for whistleblower protection because
no new information about contractor non-performance or false claims was
presented.
Action Taken
The investigation of charges of retaliation against a contractor's
employee because of his whistleblowing activities was closed.
SECTION
2
SUMMARY OF MATTERS REFERRED
TO PROSECUTIVE AUTHORITIES AND RESULTANT PROSECUTIONS AND CONVICTIONS (MANDATED
BY SECTION 5 (a) (4) OF THE ACT)
The following matters were: (1) referred
for prosecution during earlier reporting periods and remain pending, (2)
referred for prosecution during this reporting period, (3) acted upon by
prosecutive authorities during the reporting period with the noted
results, and/or (4) had administrative action taken after a declination of
prosecution:
A matter involving violation of 18 U.S.C.
1622 was referred to a United States Attorney and declined for criminal
prosecution.
A matter involving False Claims against
the government in a contract matter is pending criminal and civil action
with the Department of Justice.
SECTION
3
SUMMARY OF RESTITUTION MADE
OR FINES PAID AS A
RESULT OF CIVIL OR CRIMINAL INVESTIGATIONS AND/OR AUDITS
(NOT MANDATED BY THE ACT)
Although not mandated by any provision of
the Act, this section serves as a statistical summary of all amounts
repaid or fines paid to the government as a result of investigations, both
criminal and civil, or audits.
Amounts of restitution made During
Reporting Period
None.
SECTION
4
SUMMARY OF EACH REPORT TO
ESTABLISHMENT HEAD CONCERNING
INFORMATION OR ASSISTANCE UNREASONABLY REFUSED OR NOT
PROVIDED (MANDATED BY
SECTION 5 (a) (5) AND 6(b)(2) OF THE ACT)
A member of the Senior Executive Service
was scheduled to attend an investigatory interview. At the interview the
official refused to answer basic questions unless given certain and
specific rights. Upon the OIG's advice that cooperation could not be
conditioned, that non-cooperation could result in discipline including
discharge, and that the asserted rights did not exist, the official
persisted in refusing to answer questions. The matter was referred to the
head of the Agency for administrative action on March 31, 1999.
SECTION
5
LIST OF EACH AUDIT REPORT
ISSUED (MANDATED BY SECTION 5(a)(6) OF THE ACT
Dollar Value (in
thousands of $)
REPORT
TITLE AND NUMBER
QUESTIONED COSTS
UNSUPPORTED
COSTS
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Audit of
NLRB's Efforts Regarding the Year 2000 Problem
0
0
0
Audit of Administrative
Law Judge Procedures
0
0
0
SECTION
6
SUMMARY OF EACH SIGNIFICANT
AUDIT REPORT (MANDATED
BY SECTION 5(a)(7) OF THE ACT)
Audit of NLRB's Efforts Regarding the Year
2000 Problem
This audit evaluated the National Labor
Relations Board's efforts in identifying Year 2000 (Y2K) problems and the
actions taken or planned to ensure that mission critical systems (MCS)
will function in the new millennium. Our audit reviewed: the methodology
used to determine whether mission critical systems were Y2K compliant;
budget requests relating to correcting Y2K problems; efforts taken or
planned to correct and validate that MCS and Y2K are compliant; and
contingency plans relating to systems that have not been fixed. Our audit
did not assess whether systems identified by the Agency as MCS were
mission critical, but limited our work to verifying that the identified
systems were Y2K compliant. Our audit scope included all efforts made by
the Agency to identify and repair Y2K problems through the period ending
March 16, 1998.
During the audit we identified and
reviewed requirements and guidance provided by the Office of Management
and Budget and the General Accounting Office in order to identify Agency
responsibilities and best practices for managing the Y2K problem. We
reviewed documents, met with Agency officials responsible for managing and
implementing Y2K efforts, and met with program officials from "end
user" offices in order to assess Y2K compliance and to review actions
planned by the Agency to ensure Y2K compliance.
The Agency identified 33 mission critical
systems (MCS). We verified that the software for 20 of the 33 systems was
Y2K compliant. Agency officials reported that 7 systems were made
compliant after we completed our audit fieldwork, and 5 more were
scheduled for completion by March 31, 1999. The Financial Management
Information Accounting System (FMIAS) is scheduled to be compliant by May
1999. FMIAS is the Agency's accounting system which is used to process and
report budget and financial transactions. Actions needed to bring FMIAS
into compliance include upgrading its compiler and changing the source
code of several program modules. The Agency's contingency plan includes
using either the Microcomputer Accounting Data Entry (MADE) system or the
Backpay system, both of which are Y2K compliant, to process vendor
payments. The MADE is the PC based front end of FMIAS. The Backpay System
is an automated system used to process payments to discriminatees in
unfair labor practice cases.
Agency-wide compliance is contingent on
making applicable computer hardware Y2K compliant. We have reviewed the
Agency's action plan to upgrade hardware and finish programming remaining
systems and conclude that their goal is attainable.
Audit of Administrative Law Judge
Procedures
This audit evaluated three procedures
adopted by the Division of Judges to expedite the resolution of unfair
labor practice cases. First, a settlement judge process was implemented to
affect settlements prior to formal hearings. Second, judges were granted
the authority to ask for oral argument in lieu of briefs and issue bench
decisions at the close of hearings. Third, time targets were established
for the issuance of Administrative Law Judges' decisions. Our review
assessed whether the intended results were being achieved. We also
determined whether the information system used by the Division of Judges
accurately reported the judges' performance. The scope of our audit was
Fiscal Years 1996 and 1997. The Division of Judges issued 925 decisions
and settled 1,436 cases during those years.
The OIG ascertained policies applicable to
the Division of Judges by reviewing pertinent sections of the Agency's
Rules and Regulations and Statement of Procedures. We also interviewed
officials from the Division of Judges, selected regional offices, and the
Division of Administration. These officials explained and clarified Agency
procedures. We reviewed reports on the Judges' performance and examined
source documentation that supported these reports. We generated a
statistically valid random sample of 40 cases for review and determined
the accuracy of performance data. The statistical methodologies used allow
us to draw conclusions regarding all cases in Fiscal Years 1996 and 1997.
The Division of Judges has successfully
implemented the aforementioned procedures. The judges were achieving a
higher number of settlements thus avoiding the costs and the delay
required by a formal hearing. One key performance indicator related to the
number of elapsed days between the date a judge received the case briefs
and the date the judge issued a decision. The median number of days, from
receipt of briefs to issuance of decisions, has been reduced each of the
last several years. Our review also determined that the data relating to
the Division of Judges' performance was reliable.
SECTION
7
STATISTICAL TABLES SHOWING
TOTAL NUMBER OF AUDIT REPORTS AND
TOTAL DOLLAR VALUE OF QUESTIONED AND UNSUPPORTED COSTS (MANDATED BY SECTION 5 (a) (8) OF THE ACT
Dollar Value
NUMBER
QUESTIONED
COSTS
UNSUPPORTED
COSTS
A. Reports for which no management
decision had been made by the beginning of the reporting period
- 0 -
- 0 -
- 0 -
B. Reports issued during the
reporting period
- 0 -
- 0 -
- 0 -
Subtotal (A + B)
- 0 -
- 0 -
- 0 -
C. Reports for which a management
decision was made during the reporting period:
(i) Disallowed costs
- 0 -
- 0 -
- 0 -
(ii) Costs not disallowed
- 0 -
- 0 -
- 0 -
D. Reports for which no management
decision has been made by the end of the reporting period
- 0 -
- 0 -
- 0 -
SECTION
8
STATISTICAL TABLES SHOWING
TOTAL NUMBER OF AUDIT REPORTS AND
DOLLAR VALUE OF RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER
USE (MANDATED BY SECTION
5 (a) (9) OF THE ACT)
Dollar Value
NUMBER
RECOMMENDATIONS THAT FUNDS
BE PUT TO BETTER USE
A. Reports for which no management
decision had been made by the beginning of the reporting period
- 0 -
- 0 -
B. Reports issued during the
reporting period
- 0 -
- 0 -
Subtotal (A + B)
- 0 -
- 0 -
C. Reports for which a management
decision was made during the reporting period:
(i) Recommendations agreed to by
management
- 0 -
- 0 -
(ii) Recommendations not agreed to
by management
- 0 -
- 0 -
D. Reports for which no management
decision has been made by the end of the reporting period
- 0 -
- 0 -